OIG Audit Report GR-60-07-005

Office of Justice Programs,
Bureau of Justice Assistance
Grant No. 2001-IP-BX-0002

Salt River Pima-Maricopa Indian Community
Scottsdale, Arizona

Audit Report GR-60-07-005


June 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Correctional Facilities on Tribal Lands Program Grant No. 2001-IP-BX-0002 in the amount of $10,165,000 (including one supplement) awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Salt River Pima-Maricopa Indian Community (SRPMIC). The purpose of the grant program is to design and construct correctional facilities on tribal lands to incarcerate offenders subject to tribal law. Grants are intended to enable tribes to complete construction activities, receive training in administration and facility maintenance, and coordinate certification activities with the Bureau of Indian Affairs (BIA), U. S. Department of the Interior. Upon completion, the tribes and the BIA are responsible for sustaining the correctional facility.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. The BJA provides leadership and assistance in support of local criminal justice strategies to achieve safer communities. The BJA's overall goals are to (1) reduce and prevent crime, violence, and drug abuse and (2) improve the functioning of the criminal justice system. 
 The SRPMIC was formed by executive order on June 14, 1879, and is located east of the Phoenix metropolitan area and Scottsdale, Arizona. The SRPMIC is a community with an enrolled population that exceeds 7,000 members and is comprised of 2 Native American tribes, the Pima or "Akimel Au-Authm" (river people) and the Maricopa or "Xalychidom Piipaash" (people who live toward the water). The community consists of 53,600 acres, of which 19,000 are maintained as natural preserve and 12,000 are under cultivation in a variety of crops. 
The purpose of this audit was to determine whether reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant, and to determine program performance and accomplishments. The objective of our audit was to review performance in the following areas: (1) internal control environment, (2) drawdowns, (3) grant expenditures, including personnel and indirect costs, (4) budget management and control, (5) matching, (6) property management, (7) program income, (8) financial status and progress reports, (9) grant requirements, (10) program performance and accomplishments, and (11) monitoring of subgrantees and contractors. We determined that personnel costs, indirect costs, program income, and subgrantees were not applicable to this grant. As shown in the table below, the SRPMIC was awarded a total of $10,165,000 to implement the grant program.
 TABLE 1. CORRECTIONAL FACILITIES ON TRIBAL LANDS PROGRAM 
GRANT TO THE SALT RIVER PIMA-MARICOPA INDIAN COMMNUNITY 


 GRANT AWARD 
 AWARD START DATE 
 AWARD  END DATE 
 AWARD AMOUNT 


 2001-IP-BX-0002 
 Supplement 1 
 09/30/01 
09/18/06 
 09/29/05 
 09/30/07 
 $ 10,000,000
 165,000 


 Total: 
 $ 10,165,000


Source: Office of Justice Programs
We examined the SRPMIC’s accounting records, financial and progress reports, and operating policies and procedures, and found:

 The fiscal year (FY) 2004 Single Audit Report was 19 months late, and was released during our fieldwork, and the FY 2005 report was 7 months late and not yet started at the time of our fieldwork. 
 Some Financial Status Reports (FSRs) were late, and most were inaccurate because they did not include actual matching expenditures. 
 Required Categorical Assistance Progress Reports were not always submitted or submitted timely and were inadequate. 
Equipment purchased for the project by the contractor was turned over to the SRPMIC, but not all equipment could be located. 
The SRPMIC did not acquire a bid guarantee as required by the grant special conditions, or request a change notice to eliminate the requirement.

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I. 







Return to OIG Home Page